      Department of Homeland Security




      FEMA Public Assistance Grant Funds Awarded to the
         Alaska Department of Transportation & Public
         Facilities, Northern Region, Fairbanks, Alaska




DS-12-10                                         May 2012

                                                                                              {loS. DePO .....t   of H."'<I ....   S<'."'y
                                                                                              W..,hq.rn. DC   20~2S




                                                                                              Homeland
                                                                                              Security

                                                  ~AY    2. 7 2012

\1E\10RANDUM FOR:
                                                                                        x

FRml:
                                        Assistant Inspector G leral
                                        Oftiec of Emergency .'vlanagcmcnt Oversight

SUBJECT:                                FE]o,L4 Public Ajs;.I·/anc~ Grant FundI· Awwd~d /0 the
                                        Alaska Department ofTrans]Xlrtation & Public Facilities.
                                        NorrhanRes;ian. Fairbank!. Alaska
                                        I'EMA Disaster l\umbcr 1440-DR-AK
                                        Auui\ Report Nllmher DS-12-10

We audited public assistance (PA) grant funds awarded to the Alaska Department of Transportation
& Public I'acilitics, Northcm Region, I'airbanks, Alaska (Department), Public Assistance
Identification N lImoor 000-\ lPQJ"I-OO. OlIT alluil objective was to uetennine whether lhe
ik'PaTlment a(Xoun(t;X! l(lT anu expendeu Feueral F.merge'K)· Mam!g~menl Agen~y (FEMA) grant
I'llnU8 ac;c{mling to Federal regulations and FE\fA guidelines.

TIle .AJaska Oivision of Homeland Security and Emcrgcncy Managcment (Grantce) awarded thc
Department $22,115,865 (or damages resulting (rom an eartbqwke tbal ocelirrOO on November 3,
20()2. Tbe award provi<.kd 75 percent FEMA funding for 1.()lIT large projects and seven small
pmjech.' Our audit covered the period from November 3, 2002, t o March 12, 2012. We audit ed
i(lur large proj ects and three small projects \vith a totalmvard of $22,115,865 (Exhibit).

We conducted this performance audit betwecn July 20 11 and 'V1arch 2012 purswnl wlhe !"-'pee/or
General Ad of] 97H, as amended, anu according to geneml1y a(Xep(ed g:ov~mmenl audi ting
standards. Tho~e ~k!ndar<.l.i; req llire (hat we plan and perform the audit tv obtain sufficient,
appTOp6ate evidelK e to provide a reasonable basis for our findings and conclusions based upon our
audit obj ective. We belicvc that the evidcnce obt ained pro~idcs a reas.onable basis for our findings
and condlL~ions based upon our andit objecl;ye. \\"e conducted lhi~ anuit applying lhe s(a(lli~~,
regulations, and FEM A policie8 <\nd guidelines in dTecl at the time of the disaster.




, F. d. ro! n:gul>lli()", in dtect 01 the lim. of the dis.,It,   ,oj   Ill< large project threshold at S~3,OOO.
We discussed issues related to this audit with FEMA, Grantee, and Department officials; reviewed
judgmentally selected project costs (generally based on dollar value); and performed other
procedures considered necessary to accomplish our objective. We did not assess the adequacy of the
Department’s internal controls applicable to grant activities because it was not necessary to
accomplish our audit objective. We did, however, gain an understanding of the Department’s
method of accounting for disaster-related costs and its procurement policies and procedures.


                                             RESULTS OF AUDIT

The Department generally accounted for and expended FEMA grant funds according to Federal
regulations and FEMA guidelines, and complied with applicable procurement requirements,
including competitive sealed bids, extended time to submit bids, broad advertisement, public
opening of bids, and price analysis. However, our audit disclosed the following exceptions in which
the Department did not properly expend or account for grant funds:

                                     Table 1: Questioned Costs
        Finding                              Subject                                Amount Questioned
           A                         Adequate Documentation                                 $ 232,085
           B                             Scope of Work                                          29,981
           C                        Completion of Small Project                                 24,568
           D                           Pre-Disaster Repairs                                     16,300
           E                            Maintenance Costs                                        1,620
    Total                                                                                    $304,554

Finding A: Adequate Documentation

The Department improperly claimed costs of $232,085 for airport runway emergency repairs on
Project 10. The costs were based on a percentage allocation for two of the contractor’s progressive
billings and pertained to work performed after November 2002, the month the project was
completed. Under the same contract as Project 10, but based on different work orders, the contractor
performed additional repairs during December 2002 and January 2003 for a roadway project that
was not funded by FEMA. The Department’s inspection reports show that the scope of work for
Project 10 was performed during October and November 2002, and the work not funded by FEMA
was performed in December 2002 and January 2003. Further, the Department could not provide any
source documents, such as material usage or inventory records, to prove that the costs incurred
during December and January pertained to FEMA-approved portions of Project 10. According to
2 CFR 225, Cost Principles for State, Local, and Indian Tribal Governments, Appendix A, Section
C.1.j, a cost must be adequately documented to be allowable under Federal awards.2 Therefore, we
question the $232,085 in allocated costs.

In response to our questions on these costs, the Department responded that the charges in question
were based on a 33 percent allocation of the contractor’s costs incurred for rock materials while
performing the roadway repairs. The Department asserted that the allocation was proper and that it

2
 Office of Management and Budget Circular A-87, in effect at the time of the disaster, was relocated to 2 CFR 225 on
August 31, 2005.
                                                          2

reflected costs incurred during a 2-month period (December 2002 and January 2003) to replenish the
Department’s stockpiled rock materials used on Project 10. However, as stated above, the
Department did not provide sufficient documentation, as required under 2 CFR 225, to support its
assertion that the allocation was appropriate. The Department confirmed that the costs were incurred
after completion of the scope of work under the FEMA project. The Grantee generally agreed with
the Department’s response, and FEMA did not provide a response for this finding.

Finding B: Scope of Work

The Department improperly claimed $29,981 for repairs on Project 26 that were not within the
FEMA-approved scope of work. The contracted work performed included repairs for an airport
primary runway, taxiway B, and taxiway C. However, FEMA’s approved scope of work for the
project included only repairs for the airport primary runway and taxiway B. It did not include, nor
did it make any reference to repairs for, taxiway C. The Department’s engineering staff explained
that the repairs on the primary runway necessitated repairs on taxiway C. Following are the repairs
that the Department performed for taxiway C:

    •   Work performed outside of taxiway C safety area – $5,575
    •   Work performed for all areas off the paved portion of taxiway C – $22,642
    •   Work performed on taxiway C [lighting, stripping, etc.] – $1,764

According to the Public Assistance Guide (FEMA 322, p.73), costs that are outside the FEMA-
approved scope of work are not eligible. Therefore, we question the $29,981 incurred for repairs on
taxiway C.

The Department’s response asserted that the taxiway C repairs were required to be performed in
conjunction with the runway repairs. FEMA did not provide a response for this finding.

Finding C: Completion of Small Project

The City claimed ineligible costs of $24,568 for Project 38, a Category C (permanent) small project
that was not completed. The approved scope of work consisted of road repairs and culvert
replacement. Although the Department provided support that it spent $3,401 for road repairs, it did
not provide sufficient documentation that the road repairs were completed. In addition, the
Department acknowledged that the culvert was not replaced. According to 44 CFR 206.205(a),
failure to complete authorized work under a small project may require that the Federal payment be
refunded. Therefore, we question the $24,568 claimed for Project 38.

The Department acknowledged the costs were not supported, but said that the costs were eligible
based on FEMA’s small project procedures. The Grantee concurred with the Department. FEMA
said that $7,500 ($24,568 less $17,068) may be ineligible based on the Department’s
acknowledgment that it did not replace the culvert, but did not address the documentation issue for
the remainder of costs in its response.

Finding D: Pre-Disaster Repairs

The Department incorrectly claimed $16,300 on Project 10 for the repair of airport lighting fixtures
that were not damaged as a result of the disaster. Our review of work orders established that
                                                  3

damages to three flush lights in the runway lighting system occurred before the disaster and the
lights were inoperable at the time of the disaster. According to 44 CFR 206.223(a), to be eligible for
financial assistance, an item of work must be required as the result of the major disaster event.
Therefore, we question the $16,300 of ineligible charges.

The Department and the Grantee concurred that these charges are ineligible. FEMA did not provide
a response for this finding.

Finding E: Maintenance Costs

The Department improperly claimed costs of $1,620 on Project 18 for a maintenance contract to
remove snow from a temporary runway during the construction period. According to FEMA Policy
9523.3, Provision of Temporary Relocation Facilities, costs specifically excluded from disaster grant
funding for temporary facilities include utilities (e.g., power, water, heat), maintenance, or operating
costs. Therefore, we question the $1,620 because snow removal is a standard airport operating cost
in Alaska and thus, ineligible for PA funding.

The Department did not concur with the Office of Inspector General (OIG), contending that these
maintenance costs represented special needs. The Grantee concurred with OIG, and FEMA did not
provide a response for this finding.

                                      RECOMMENDATIONS

We recommend that the Regional Administrator, FEMA Region X, in coordination with the Grantee:

       Recommendation #1: Disallow $232,085 ($174,064 Federal share) for ineligible costs
       allocations that were not properly documented (finding A).

       Recommendation #2: Disallow $29,981 ($22,486 Federal share) for ineligible costs not
       within FEMA’s approved scope of work (finding B).

       Recommendation #3: Disallow $24,568 ($18,426 Federal share) for ineligible costs due to
       incomplete small project (finding C).

       Recommendation #4: Disallow $16,300 ($12,225 Federal share) for ineligible pre-disaster
       repairs (finding D).

       Recommendation #5: Disallow $1,620 ($1,215 Federal share) in ineligible maintenance
       services (finding E).


              DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOWUP

We discussed the audit results with Department officials during our audit, and included their
comments in this report, as appropriate. We provided written summaries of our findings and
recommendations in advance to FEMA, Grantee, and Department officials on November 22, 2011,
and discussed them at exit conferences held solely with FEMA on November 29, 2011, and jointly
with FEMA, the Grantee, and the Department on November 30, 2011. We also provided these
                                                   4

officials with a minimum period of 30 days in which to make a written response. Their concurrence
or nonconcurrence, and comments if provided, are shown at the conclusion of each finding within
the report.

Within 90 days of the date of this memorandum, please provide our office with a written response
that includes your (1) agreement or disagreement, (2) corrective action plan, and (3) target
completion date for each recommendation. Also, please include responsible parties and any other
supporting documentation necessary to inform us about the current status of the recommendation.
Until your response is received and evaluated, the recommendations will be considered open and
unresolved.

Consistent with our responsibility under the Inspector General Act, we are providing copies of our
report to appropriate congressional committees with oversight and appropriation responsibility over
the Department of Homeland Security. We will post the report on our website for public
dissemination.

Major contributors to this report are Humberto Melara, Western Regional Office Director, Jack
Lankford, Audit Manager; and Curtis Johnson, Auditor.

Please call me with any questions, or your staff may contact Humberto Melara at (510) 637-1463.


cc:    	Administrator, FEMA
       Audit Liaison, FEMA Region X
       Audit Liaison, FEMA (Job Code G-11-051)
       Audit Liaison, DHS




                                                 5

                                                                                                       EXHIBIT





                                      Schedule of Projects Audited 

                                 November 3, 2002, to March 12, 2012 

                          Department of Transportation Northern Region, Alaska 

                                 FEMA Disaster Number 1440-DR-AK 


                                                                 Costs Questioned
           Project                                                   Completion    Pre-
Project                  Project        Adequate        Scope of                                Maintenance
           Award                                                       of Small   Disaster
Number                   Charges      Documentation      Work                                      Costs
           Amount                                                      Project    Repairs                       Total
                                        (Finding A)    (Finding B)                               (Finding E)
                                                                    (Finding C)   (Finding D)
  10      $ 802,900     $ 802,900           $232,085                                 $16,300                   $248,385
  18       18,820,269    18,820,269                                                                   $1,620      1,620
  24          36,057        36,057
  26        2,354,260     2,354,260                      $29,981                                                 29,981
  38          24,568          3,401                                    $24,568                                   24,568
  40          27,811        17,804
  41          50,000        36,819

 Total    $22,115,865   $22,071,510        $ 232,085     $29,981       $24,568       $16,300          $1,620   $304,554




                                                         6

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General
(OIG) at (202)254-4100, fax your request to (202)254-4305, or e-mail your request to
our OIG Office of Public Affairs at DHS-OIG.OfficePublicAffairs@dhs.gov. For
additional information, visit our OIG website at www.oig.dhs.gov or follow us on Twitter
@dhsoig.

OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to Department of Homeland Security programs and
operations:

• Call our Hotline at 1-800-323-8603

• Fax the complaint directly to us at (202)254-4292

• E-mail us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
        DHS Office of Inspector General/MAIL STOP 2600,
        Attention: Office of Investigation - Hotline,
        245 Murray Drive SW, Building 410
        Washington, DC 20528

The OIG seeks to protect the identity of each writer and caller.
